<html>
<title> - McPHERSON SQUARE: WHO MADE THE DECISION TO ALLOW INDEFINITE CAMPING IN THE PARK?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
McPHERSON SQUARE: WHO MADE THE DECISION TO ALLOW INDEFINITE CAMPING IN 
                               THE PARK?

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON HEALTH CARE, DISTRICT OF

               COLUMBIA, CENSUS AND THE NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT

                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 24, 2012

                               __________

                           Serial No. 112-129

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform




                  U.S. GOVERNMENT PRINTING OFFICE
74-027                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

   Subcommittee on Health Care, District of Columbia, Census and the 
                           National Archives

                  TREY GOWDY, South Carolina, Chairman
PAUL A. GOSAR, Arizona, Vice         DANNY K. DAVIS, Illinois, Ranking 
    Chairman                             Minority Member
DAN BURTON, Indiana                  ELEANOR HOLMES NORTON, District of 
JOHN L. MICA, Florida                    Columbia
PATRICK T. McHENRY, North Carolina   WM. LACY CLAY, Missouri
SCOTT DesJARLAIS, Tennessee          CHRISTOPHER S. MURPHY, Connecticut
JOE WALSH, Illinois


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 24, 2012.................................     1
Statement of:
    Quander, Paul, Jr., Deputy Mayor for Public Safety and 
      Justice, District of Columbia, accompanied by Cathy Lanier, 
      chief, Metropolitan Police Department and Mohammad Akhter, 
      M.D., director, D.C. Department of Health; Timothy Zick, 
      Cabell research professor of law, William and Mary School 
      of Law; and Jonathan Jarvis, Director, National Park 
      Service....................................................    15
        Jarvis, Jonathan.........................................    33
        Quander, Paul, Jr........................................    15
        Zick, Timothy............................................    25
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    13
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................     7
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California, information concerning Occupy D.C.....     3
    Jarvis, Jonathan, Director, National Park Service, prepared 
      statement of...............................................    35
    Quander, Paul, Jr., Deputy Mayor for Public Safety and 
      Justice, District of Columbia, prepared statement of.......    18
    Zick, Timothy, Cabell research professor of law, William and 
      Mary School of Law, prepared statement of..................    27


McPHERSON SQUARE: WHO MADE THE DECISION TO ALLOW INDEFINITE CAMPING IN 
                               THE PARK?

                              ----------                              


                       TUESDAY, JANUARY 24, 2012

                  House of Representatives,
Subcommittee on Health Care, District of Columbia, 
                  Census and the National Archives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m. in 
room 2154, Rayburn House Office Building, Hon. Trey Gowdy 
(chairman of the subcommittee) presiding.
    Present: Representatives Gowdy, Issa, McHenry, DesJarlais, 
Walsh, Cummings, Norton, Clay and Davis.
    Staff present: Ali Ahmad, communications advisor; Kurt 
Bardella, senior policy advisor; Michael R. Bebeau and Gwen 
D'Luzansky, assistant clerks; Robert Borden, general counsel; 
Will L. Boyington and Drew Colliatie, staff assistants; Molly 
Boyl, parliamentarian; Lawrence J. Brady, staff director; 
Joseph A. Brazauskas and David Brewer, counsels; Sharon Casey, 
senior assistant clerk; John Cuaderes, deputy staff director; 
Howard A. Denis, senior counsel; Adam P. Fromm, director of 
Member services and committee operations; Linda Good, chief 
clerk; Christopher Hixon, deputy chief counsel, oversight; Ryan 
Little, James Robertson, and Michael Whatley, professional 
staff members; Mark D. Marin, director of oversight; Jeff 
Wease, deputy CIO; Jaron Bourke, minority director of 
administration; Beverly Britton Fraser, Yvette Cravins, and 
Brian Quinn, minority counsels; Kevin Corbin, minority deputy 
clerk; Carla Hultberg, minority chief clerk; Paul Kincaid, 
minority press secretary; Adam Koshkin, minority staff 
assistant; Lucinda Lessley, minority policy director; William 
Miles, minority professional staff member; and Susanne Owen, 
minority health policy advisor.
    Mr. Gowdy. The committee will come to order.
    This is a hearing on McPherson Square: Who Made the 
Decision to Allow Indefinite Camping in the Park?
    I will recognize myself for an opening statement and yield 
to the chairman of the full committee, the gentleman from 
California, Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    I ask unanimous consent that a statement prepared by the 
individuals or group of individuals currently residing in 
McPherson Square as part of Occupy D.C. be placed into the 
record in its entirety.
    Mr. Gowdy. Without objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 74027.001
    
    Mr. Issa. I thank you. I yield back.
    Mr. Gowdy. I thank the gentleman from California.
    Among the pillars that undergird this grand republic, at 
least two are at bar this morning: number one, the freedom of 
speech and expression; and two, a respect for the rule of law. 
These two principles are entirely consistent, indeed, they have 
to be consistent. They can and they do coexist.
    Today we are not here to discuss the merits or the demerits 
of the Occupy movement, at least, I am not. I am here to try 
and glean what process, if any, the National Park Service goes 
through in determining whether to allow a residential 
encampment among the homes and offices in a busy area in 
downtown D.C., especially one where camping is strictly 
prohibited.
    It is impossible to explore the role of the National Park 
Service without also hearing from the leaders within the 
District of Columbia. I suspect the witnesses from the District 
of Columbia will testify, as has been publicly reported, with 
respect to any adverse consequences associated with this 
encampment.
    We have all read, with outrage and shock, about an infant 
abandoned in a tent on one of the coldest days of the year. 
Mayor Gray wrote the Park Service on January 12th to warn them 
of dangerous rodent infestation, the risk of food-borne 
illnesses and other potentially deleterious, if not deadly, 
concerns such as hypothermia and carbon monoxide poisoning.
    The District of Columbia and its leaders are in a 
completely untenable position. It is their responsibility to 
protect the health and safety of its residents, including those 
residents in McPherson Square; however, they do not have the 
authority to make the decision whether or not to allow the camp 
to exist.
    The Federal Government owns the land and governs its use, 
sharing responsibility for the health and safety of those in 
the park. The Department of Interior has taken responsibility 
for the decision to allow the indefinite overnight camping at 
McPherson Square and the process by which they reached this 
decision is, at best, curious and legally fragile.
    Many of us look forward to today's hearing because we were 
under the apparent misapprehension that camping was illegal in 
McPherson Square. We look forward to hearing the National Park 
Service explain the difference between camping and a 24-hour 
vigil, especially when that 24-hour vigil lasts several months.
    The evidence is clear, at least in my judgment, that 
sleeping, cooking and camping are taking place in McPherson 
Square, despite protestations to the contrary, and apparently 
despite the clear prohibition against camping.
    To sum, issues of public safety for the protestors and 
others is important. Issues of free speech are important. 
Issues of cost and who bears the costs are important. It is 
manifestly unfair that the District of Columbia assume all the 
costs and liabilities for decisions made by the National Park 
Service.
    At the bottom of it all is the issue of fair and equal 
application of the law because from this vantage point, it 
appears that there are at least two very different sets of 
rules. With the spring and summer a short distance away, I find 
it curious that tourists cannot come and pitch a tent in 
McPherson Square if they are camping for fun, but if they are 
camping in protest of fun, the National Park Service would 
welcome them.
    Mr. Gowdy. With that, I would recognize the gentleman from 
Illinois, the ranking member, Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    Mr. Chairman, the First Amendment of the U.S. Constitution 
reads, ``Congress shall make no law abridging the freedom of 
speech or of the press or the right of people peaceably to 
assemble and to petition the government for redress of 
grievances.''
    Of course the right to protest is not unrestricted. The 
Supreme Court has determined that certain limitations can be 
imposed to strike a delicate balance between order and the 
right to be heard. In a public forum, the government may 
restrict expression with time, place and manner regulations. 
However, restrictions cannot be based upon the content of the 
speech and the regulation must not be substantially broader 
than necessary to achieve the government's interest.
    The history of dissent is a long and productive one from 
the abolitionist flyers to the labor movement of the early 20th 
century, to women's suffrage, to the civil rights marches and 
peace protests. Our country has become a more inclusive and 
enlightened Nation because people spoke truths to power.
    Dissenters met government resistance but persevered. Around 
the clock vigils and sit-ins are nothing new. The students that 
maintained their seats at a North Carolina Woolworth's lunch 
counter ignited a movement to challenge injustice and helped 
change America. I understand that to be a part of civil 
disobedience.
    I encourage those who seek government redress to operate in 
a peaceful manner. That being said, I certainly appreciate the 
National Park Service and the U.S. Park Police measured 
approach to D.C. occupiers. We have not seen the disarray here 
that has been broadcast across our television screens from 
other cities.
    The Federal agencies overseeing the lands and parks have a 
specific role in insuring that the First Amendment rights are 
respected and protected. The District of Columbia, as a protest 
site, is of particular significance and importance. The 
District has a history of hosting some of the most significant 
protest activities of the modern era. Accordingly, in 2011, 
there were over 600 First Amendment activities on our national 
park lands.
    I find it curious that this particular demonstration has 
risen to the level of a congressional hearing. The Occupy D.C. 
movement has not encountered widespread arrests; the vigils are 
in a concentrated area; the District receives funds for 
reimbursement annually for such activities. Further, the 
discretion allowed the Park Service allows for a reasonable 
approach of compliance, banning enforcement or expulsion.
    I believe going forward the Occupy D.C. movement should 
continue to be closely monitored to ensure proper safety, 
health and sanitation. Interaction and cooperation of the 
various agencies to monitor the site should be encouraged. 
However, this protest, in its current form, does not rise to 
the level of necessary congressional intervention. This 
subcommittee should defer to the discretion of the National 
Park Service and err on the side of the First Amendment.
    I would like to yield for just a minute to myself to read a 
portion of the statement from the Occupy D.C. General Assembly 
submitted to staff.
    ``Like so many whose voices are not heard in the halls of 
Congress, we have been precluded from speaking today on a 
matter that directly concerns us. That we have to ask a Member 
of Congress to speak for us here is symbolic of the 
disenfranchised and top down nature of the government that we 
are fighting to democratize.''
    ``Citizens of a free country should not have to ask for 
permission to occupy public spaces. Our occupation of McPherson 
Square is an expression of our First Amendment right to free 
speech and peaceful assembly. We are maintaining a site of 
protest, a physical presence that gives visibility and voice to 
our dissent. We are creating a space in which free speech 
flourishes, not only the free speech of occupiers, but that of 
the general public, the empowered and the disenfranchised 
alike.''
    ``Like most people, the members of Occupy D.C. at McPherson 
Square do not relish being in uncomfortable conditions that 
humans without housing have endured for a millennia. We do so 
because it has become a necessary tactic to express our concern 
for the Country's direction in a way that will maintain public 
attention.''
    ``Two out of three Americans, incidentally, agree that our 
Country is headed in the wrong direction. A far smaller 
percentage approve of the job Congress is doing. While 
foreclosure has become a hallmark of modern America, the 
solutions to our Country's numerous problems do not include 
suppressing free speech and evicting patriots from their 
tents.''
    ``The very existence of a committee of politicians 
controlling the city, none of them were elected and it is 
offensive, though McPherson Square happens to have been 
declared Federal land. D.C.'s full submission to congressional 
control is the height of hypocrisy for a nation that considers 
itself the global arbiter of democracy.''
    Mr. Chairman, I thank you for the opportunity and yield 
back the balance of our time.
    [The prepared statement of Hon. Danny K. Davis follows:]
    [GRAPHIC] [TIFF OMITTED] 74027.002
    
    [GRAPHIC] [TIFF OMITTED] 74027.003
    
    Mr. Gowdy. I thank the gentleman from Illinois.
    The Chair will now recognize the gentleman from California, 
the chairman of the full committee, Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    If this were about protest today, we would not be having 
this hearing. I was here May 4, 1971, the first anniversary of 
the killings at Kent State in which the Mall was filled with 
protestors, anti-war protestors and protestors over the campus 
disruptions and the early dismissal of universities throughout 
the country as the result of their law-abiding protests.
    The fact is we are all here respecting and promoting the 
idea that D.C. is and will continue to be a place for protests 
to occur. If anything, I believe we facilitate it like no other 
city in the United States and I want to continue to do so.
    Mr. Chairman, let me give you a fairly straightforward 
number. I am not the smartest guy in the world but I looked up 
that an acre is roughly 208 feet by 208 feet, so 1.66 acres, 
the size of this square, makes it one of the smallest parks 
that the Park Service oversees.
    If we are to say that any place here in the District or 
around the country for a protest can become a campground simply 
because someone is protesting, as we hear from Mr. Jarvis and 
others, we are basically going to have to figure out a way to 
put showers, restrooms and other sanitary requirements in parks 
that may be an acre or two. We are going to have to station 
park rangers to do their job because not all those who would 
choose to camp can be trusted the way so far this has worked 
out. We have challenges that we have to face.
    The real reason we have the Park Service here today is to 
find out why the District of Columbia for one, and it does not 
matter which side, ideologically driven protest is breaking all 
of its own rules, citing some First Amendment that if you cited 
uniformly will change the whole dimension of where people get 
to go to national parks.
    Plenty of national parks take everyone out, if necessary at 
gunpoint, at dark, and tell them they are no longer welcome in 
the park, that their hours of operation are dawn to dusk or 
some other time. There are all kinds of areas in which you can 
or cannot be in various Federal lands. That is not what we are 
debating here.
    We are debating the uniform use of a designation of 
campground versus not campground and more importantly, we will 
hear from two distinguished members of the District of 
Columbia, we are dealing with the fact the District of Columbia 
is bearing the brunt of this lack of uniformity, lack of 
enforcement, even when there is a Supreme Court decision that 
makes it very clear that campers should not be there.
    Protestors during our hours of operation, actually 
protestors 24 hours a day, they want to come with candles and 
stand, that is fine. Freedom is not an absence of uniform 
rules. Yesterday, there was a National Right to Life protest in 
the city. They came, they protested and they left. If they had 
chosen to stay, they would have been expected to get hotel 
rooms or in some other lawful way, to find accommodations.
    We are going to hear from the city what this is doing to 
them. Hopefully, we will hear what would happen if this became 
sort of the law of the land, whether it was for the left or the 
right. How would we deal with it? What would we have to fund 
the city? What would be the sanitary requirements and the like? 
Ultimately, would this simply become I protest, therefore, I 
can stay anywhere I want?
    Mr. Chairman, I asked to have the Occupy D.C. statement put 
in the record. I appreciate that you did so at the very 
opening. I want them to be heard, but candidly, I want to hold 
our government agencies, Federal Government agencies, to 
respect a uniform set of rules and not choose which First 
Amendment advocates to choose.
    We will hear in their opening statements today, exactly 
that. We will hear that this is narrowly trying to balance. The 
Supreme Court has already spoken on what the balance is. They 
have a clear ability and requirement to prohibit overnight 
camping according to their own rules and they are not doing it.
    I am deeply disappointed. I feel the Park Service has 
entered into an ideological fray by making this decision on 
behalf of the administration when, in fact, the decision could 
have been very clear. Stay awake, stay vertical, do not be 
camping here, and you are welcome to stay and have an active 
protest as long as you want. When you need to sleep, go 
elsewhere and come back. When you need to use the restroom 
facilities, showers and other hygienic requirements that are 
not actively available in this very, very small, 1.66 acres, go 
elsewhere and come back.
    That is the message we should have sent and as the 
committee that oversees and has responsibility to protect the 
rights, privileges and candidly, obligation that we put on the 
District of Columbia, we must first and foremost remember this 
is the District of Columbia's burden being borne by this lack 
of uniformity. If we do not find a common and predictable set 
of rules for the future, then we put the District of Columbia 
in a very untenable position that while welcoming legitimate 
protests, they find themselves unable to predict who will sleep 
where and what they will or will not be able to do with it.
    Mr. Chairman, this is a narrow hearing. I appreciate your 
calling it. I believe the issue is important, albeit it very, 
very much about, as I previously said, what we, as a committee, 
need to make sure is fair and right for the District of 
Columbia.
    I appreciate your indulgence and yield back.
    Mr. Gowdy. I thank the chairman.
    The Chair will now recognize the gentleman from Maryland, 
the ranking member of the full committee, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Gowdy and Ranking 
Member Davis, for holding today's hearing and providing us with 
an opportunity to speak on behalf of the millions of Americans 
who are demanding justice and fairness from both their 
government and elements of the private sector.
    In fact, Mr. Chairman, in many ways, I find it baffling 
that we are actually convening this morning's hearings to 
debate the merits of allowing Americans to use their public 
parks as a venue in which to express their First Amendment 
rights, a practice that is as old as our republic and as 
fundamental to our democracy as our Constitution which 
guarantees the right of assembly.
    Even more alarming is that the majority has fast-tracked 
today's hearing while repeatedly ignoring and dragging their 
feet when I requested to fully investigate mortgage servicers' 
alleged abuses against American families. Given the extent of 
the foreclosure crisis and harm it has caused to many 
homeowners across the Nation, I am deeply concerned about the 
committee's failure to use its investigative power to protect 
American consumers or examine the numerous allegations of 
wrongdoing by banks.
    I have repeatedly raised these concerns and today I sent a 
letter to the chairman renewing my request for a comprehensive 
investigation into wrongful foreclosures and other abuses by 
mortgage servicing companies.
    While neglecting the harm that many Americans are suffering 
at the hands of mortgage servicers, the majority has leapt to 
investigate whether banks have been the victims of abuse from 
American citizens. The majority sent letters to several banks 
requesting information that supports the highly improbable 
allegation that representatives of the Occupy movement 
attempted to extort major banks. The responses have stated that 
the banks are not aware of any instances of the alleged 
conduct.
    I too want to welcome our witnesses and thank you for 
agreeing to come before us today.
    The District of Columbia is no stranger to the host of 
challenges and benefits that have come with being the home of 
the national government in the world's oldest democracy. Given 
the constant stream of citizen demonstrations, special events, 
marches and petitions for redress of grievances, I recognize 
that balancing the right of our fellow citizens to assemble 
peacefully while simultaneously protecting the health, safety 
and property of the city's residents and visitors is no easy 
task. Therefore, I applaud both the city government and the 
myriad of Federal agencies that work collectively and routinely 
to balance these interests.
    But, folks are hurting and struggling as many Americans 
presently are, it is all the more critical that they be able to 
raise their voices and demand change. The recent Occupy 
movement that has emerged in cities and communities across this 
great Nation represents the peoples' demand for progress. 
People want jobs, they want better treatment, they want 
adequate housing and most importantly, they want action, and 
they have the constitutional right to make their voices heard.
    While practical considerations associated with the 
prolonged presence of Occupy D.C. protestors at McPherson 
Square certainly must certainly be addressed, concerns over 
grass seeds should not outweigh grassroots efforts to seek 
improvements and help for our most vulnerable citizens. Nor 
should rats be allowed to stand in the way of the demand for 
real reform, especially when there are easy ways to rectify 
such problems at limited costs.
    A little over a week ago, our country came together to 
celebrate the life and the legacy of the legendary Reverend Dr. 
Martin Luther King, Jr. He stood for equal opportunity and 
equal rights for all. Dr. King exemplified how the peaceful 
exercise of the rights enshrined in our Constitution can truly 
change the world. Reverence for these rights must remain at the 
heart of all that we are as a nation.
    Again, I want to thank each of our witnesses for coming 
before us today. I especially what to express my heartfelt 
sympathy to you, Dr. Jarvis, for your agency's recent loss of 
Park Ranger Margaret Anderson in Mt. Rainier, Washington. It is 
truly an unfortunate reminder that our Federal public servants 
are, in fact, exposed to significant risks while performing 
their daily duties.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]
[GRAPHIC] [TIFF OMITTED] 74027.004

[GRAPHIC] [TIFF OMITTED] 74027.005

    Mr. Gowdy. I thank the gentleman from Maryland.
    Members may have 7 days to submit opening statements and 
extraneous material for the record.
    We will now welcome our distinguished panel of witnesses: 
Mr. Paul Quander is the deputy mayor for public safety and 
justice for the District of Columbia; Chief Cathy Lanier is the 
chief of the Metropolitan Police Department; Dr. Mohammad 
Akhter is the director of the D.C. Department of Health; Mr. 
Timothy Zick is the Cabell research professor of law at William 
and Mary School of Law; and Mr. Jonathan Jarvis is the Director 
of the National Park Service.
    We will now hear your opening statements. We will start 
with you, Mr. Quander and go from my left to right, your right 
to left. The lights mean what they traditionally mean in life. 
Green means go; yellow means speed up and go as fast as you 
can; and red means stop.
    Pursuant to committee rules, we will swear the witnesses. I 
ask that you rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Gowdy. Mr. Quander, we will now recognize you for your 
opening statement.

STATEMENTS OF PAUL QUANDER, JR., DEPUTY MAYOR FOR PUBLIC SAFETY 
AND JUSTICE, DISTRICT OF COLUMBIA, ACCOMPANIED BY CATHY LANIER, 
  CHIEF, METROPOLITAN POLICE DEPARTMENT AND MOHAMMAD AKHTER, 
M.D., DIRECTOR, D.C. DEPARTMENT OF HEALTH; TIMOTHY ZICK, CABELL 
RESEARCH PROFESSOR OF LAW, WILLIAM AND MARY SCHOOL OF LAW; AND 
        JONATHAN JARVIS, DIRECTOR, NATIONAL PARK SERVICE

                 STATEMENT OF PAUL QUANDER, JR.

    Mr. Quander. Good morning, Chairman Gowdy and members of 
the Committee on Oversight and Government Reform.
    Thank you for the opportunity to present testimony and 
observation on issues surrounding Occupy D.C. encampments 
located at Freedom Plaza and McPherson Square.
    My name is Paul Quander and I serve as the deputy mayor for 
public safety and justice in the District of Columbia. I am 
joined today by Chief Cathy Lanier of the Metropolitan Police 
Department and Dr. Mohammad Akhter, Director of the District of 
Columbia Department of Health.
    On October 6, 2011, the National Park Service granted 
permission to and allowed two very distinct Occupy D.C. groups 
to establish sites upon Federal property for the purpose of 
protesting a variety of issues. These sites and demonstrations 
were and continue to be located at Freedom Plaza, 14th and 
Pennsylvania Avenue, N.W., three blocks southeast of the White 
House and McPherson Square, two blocks northwest of the White 
House at 15th and K Street, N.W., Washington.
    During the first week of the Occupy movement, there were 
approximately 150 protestors at Freedom Plaza and 250 at 
McPherson Square. Since Thanksgiving, the number of occupants 
has fluctuated with the Freedom Plaza group numbering 
approximately 30 to 40 participants and the McPherson Square 
contingent numbering about 25 to 50 participants.
    Initially, a significant number of Metropolitan Police 
officers were deployed to address Occupy D.C., including the 
Metropolitan Police Department's Special Operations Division, 
SOD, as well as the Civil Disturbance Unit which is staffed by 
patrol members. After the first week, however, MPD was able to 
decrease the resources used for Occupy D.C. except for major 
movements or incidents.
    In the ensuing weeks of the encampments, there were 
approximately four occasions which required the Metropolitan 
Police Department to detail more than one or two officers per 
patrol district per shift from the Civil Disturbance Units. 
These events included the Americans for Prosperity meeting at 
the Convention Center on November 4; the march on Key Bridge on 
November 17; the K Street protest on December 7; and the Occupy 
Congress march last week on January 17th. MPD staffing for 
those incidents ranged from 80 to 400 officers.
    For the most part, protests and the occupants of the 
encampments have been peaceful. There have been the usual 
taunting and insulting of police, which is common. However, on 
a few occasions, the tactics of the protestors has become very 
aggressive and dangerous, resulting in injuries and situations 
where law-abiding citizens were unable to exit buildings or 
travel on our public roadways.
    For instance, one incident at the Convention Center 
involved blocking entrances and exits to the Convention Center 
using children as impediments as well as physically challenging 
attendees of the events espousing opposing political views. 
These are all unacceptable tactics and potentially very 
harmful. Blocking traffic and jumping in front of vehicles is 
especially dangerous.
    Furthermore, there have been incidents of destruction of 
property. Most worrisome has been the incidents of violence at 
McPherson Square such as the attacks on a Park Police officer 
and later an occupant of the encampment, both of which resulted 
in hospitalizations. Most recently we had the neglect of a 13-
month-old child, barely clothed, who was left unattended by her 
father.
    As of January 19th, the Metropolitan Police Department has 
arrested 68 individuals affiliated with the Occupy protest. An 
additional 13 protestors were arrested by another District 
Police force on the grounds of Franklin School. There have been 
other arrests by Federal law enforcement officers.
    While the numbers of protestors has dwindled, it does not 
alleviate the potential for escalating protest tactics. The 
point of any protest is to exercise a constitutional right and 
at the same time attract attention to the cause. If the sheer 
numbers do not demand notice, experience has shown us that 
escalating tactics may be used to garner attention.
    The District has a continuing obligation to provide for the 
overall health and welfare of its residents and visitors to the 
city. Several District of Columbia agencies are working to 
ensure the wellbeing of the protestors and to assess and 
mitigate the impact of their presence on the community. 
Although there have not been any public health emergencies such 
as outbreaks of communicable diseases or reports of food borne 
illnesses, we will remain vigilant in monitoring and protecting 
the health and safety of the demonstrators.
    The Department of Health has led an effort to address many 
of the issues. I just need to point out certain areas on which 
we are concentrating. Hypothermia remains a serious condition. 
Rodent harborage and abatement is a major factor. Food safety, 
prescription medications and physical health screenings are 
something we are encouraging the participants to participate 
in. We also need to be cognizant of emergency evacuation plans. 
When makeshift utensils and heating apparatuses are used, there 
is the potential for harm and danger.
    With this, Mr. Chairman, I conclude my testimony and look 
forward to answering any questions the committee may have.
    [The prepared statement of Mr. Quander follows:]
    [GRAPHIC] [TIFF OMITTED] 74027.006
    
    [GRAPHIC] [TIFF OMITTED] 74027.007
    
    [GRAPHIC] [TIFF OMITTED] 74027.008
    
    [GRAPHIC] [TIFF OMITTED] 74027.009
    
    [GRAPHIC] [TIFF OMITTED] 74027.010
    
    [GRAPHIC] [TIFF OMITTED] 74027.011
    
    [GRAPHIC] [TIFF OMITTED] 74027.012
    
    Mr. Gowdy. Thank you, Mr. Quander.
    I have been informed, but I want to verify, the District of 
Columbia representatives will have one opening statement?
    Mr. Quander. One opening statement and Chief Lanier, Dr. 
Akhter and I will be available to answer and respond to any 
questions you may have.
    Mr. Gowdy. I did not want to skip over anyone.
    I will now go to Professor Zick.

                   STATEMENT OF TIMOTHY ZICK

    Mr. Zick. Thank you, Mr. Chairman.
    Although we are focused here on a particular public place, 
I think this is an important national issue. There have been 
Occupy movements, as you know, across the country. This is a 
protest that is unique, a demonstration that is unique in its 
methods and it raises some of the same resource concerns that 
sit-ins, parades and marches do, but it is different in an 
important respect. That is this.
    The movement seeks permanence of place, it seeks to occupy 
or commandeer a place as part of its First Amendment message. I 
think it is important to keep that in mind as you consider the 
First Amendment implications of possibly evicting them from 
this place. It is not simply, as Chairman Issa said, an 
opportunity to be heard; it is also an opportunity to be seen. 
Both of those things are protected under the First Amendment.
    The place that is being occupied and demonstrated in, in 
this particular incidence, is a special place. It is a public 
forum which under First Amendment doctrine means that, as the 
Supreme Court has said, time out of mind, people have gathered 
there for assembly, speech and petition to discuss matters of 
public concern. In particular, in the District of Columbia, 
given the site of government, these places have been treated by 
the D.C. Circuit and other courts as special forums or as a 
locus for protest activity.
    That said, and as some committee members have already 
suggested, protest rights in public places are not absolute. 
That is true. The agency that is charged with managing this 
property has two main responsibilities. The first, I think it 
has discharged quite well, particularly in light of its history 
in the courts, I can speak to that in questions rather than in 
my statement, is to make sure that First Amendment rights are 
fully preserved and robustly protected.
    It has done that in this particular case through a process 
of negotiated management rather than forceful eviction. In my 
mind, that is a plausible choice to make and a worthy one. I am 
in the odd position here of actually defending an agency for 
potentially over protecting speech. It is a rather odd position 
for me because normally I am critical of the government for 
restricting First Amendment rights in public places.
    In terms of that particular trusteeship obligation to 
protect the rights of people to assemble, petition and speak in 
public places, the agency, as I said, has discharged its 
responsibilities and obligations quite well. I know the 
committee though is concerned about the balance of those 
particular fundamental liberties with the interest of the 
public in safety, health and order and those sorts of concerns.
    I can say, having looked at the regulations, the agency is 
in compliance with most of them. I cannot speak in particular 
to the camping one because that depends on facts on the ground 
and a totality of circumstances determination by the agency. No 
permit is required for a demonstration of this size; there are 
no explicit time limits in the regulations on protests. Some 
structures are permitted and some, as I understand it, have 
been removed upon action of the agency and local officials. In 
large part, the agency has been in compliance with its own 
regulations.
    I understand the concern that the agency not be permitted 
to prefer some speakers over the others. I want to be clear 
about what that obligation is under the First Amendment. It is 
not inappropriate necessarily to prefer fundamental liberties 
to other uses of the property. What would be inappropriate is 
to prefer some speakers over others based upon their viewpoint 
or the content of their message.
    I am not aware of any instance in which the agency has not 
permitted a group to occupy a place in this fashion, to 
demonstrate in this way, but permitted this particular 
demonstration to go forward. It is not clear to me the agency 
has done anything in violation of that principle of content 
neutrality. In my view, it can prefer that use to other uses of 
the public property.
    There are concerns, I think, about allowing people to 
occupy and demonstrate in this fashion and what that will do to 
public parks. The chairman raised that particular issue. I 
would say allowing this activity to take place and this 
demonstration to occur does not mean you cannot enforce 
reasonable time, place and manner regulations, including on the 
time and location of public demonstrations. Again, in McPherson 
Square, the regulations permit an assembly of this sort, a 
demonstration of this sort.
    I would be happy to answer your questions.
    Thank you.
    [The prepared statement of Mr. Zick follows:]
    [GRAPHIC] [TIFF OMITTED] 74027.013
    
    [GRAPHIC] [TIFF OMITTED] 74027.014
    
    [GRAPHIC] [TIFF OMITTED] 74027.015
    
    [GRAPHIC] [TIFF OMITTED] 74027.016
    
    [GRAPHIC] [TIFF OMITTED] 74027.017
    
    [GRAPHIC] [TIFF OMITTED] 74027.018
    
    Mr. Gowdy. Thank you, Professor Zick.
    Mr. Jarvis.

                  STATEMENT OF JONATHAN JARVIS

    Mr. Jarvis. Mr. Chairman and members of the subcommittee, I 
appreciate the opportunity to appear before you today to 
discuss the National Park Service's handling of the Occupy D.C. 
demonstrations at McPherson Square.
    This hearing takes place in the District of Columbia, the 
Capital of our Nation and the seat of our Federal Government. 
It is here, perhaps more than any other place in the United 
States, that Americans come to exercise their First Amendment 
rights to peacefully assemble, to petition their government for 
redress of grievances and to exercise their right of freedom of 
speech. All 397 of America's national parks, but especially the 
national parks in Washington, DC, are places where citizens' 
rights are guaranteed under our Nation's Constitution.
    Among law enforcement agencies in the Nation, the National 
Park Service and its urban law enforcement organization, the 
U.S. Park Police, have perhaps the greatest experience handling 
First Amendment activity. In 2011 alone, there were 626 
permitted First Amendment activities on MPS lands in 
Washington, DC. Not all First Amendment activities require a 
permit. Therefore, these numbers are only a portion of those 
taking place in our capital city.
    A few examples of the historic large scale, First Amendment 
demonstrations here on MPS lands include the annual Right to 
Life march, the Million Man march, Promise Keepers, and the 
World Bank International Monetary Fund protests. Some of these 
events have changed our Nation such as when Dr. Martin Luther 
King, Jr.'s civil rights march took place on the National Mall.
    Though many of these First Amendment demonstrations are 
short term, some are longer term vigils. In 1979, 6,000 family 
farmers drove their tractors to Washington, DC, to protest 
American farm policy. They were on the Mall for 7 weeks. A 
month after Dr. King's assassination, thousands of 
demonstrators set up a shantytown known as Resurrection City 
for a month-long vigil here in Washington. In 1985, Vietnam 
veterans' vigil groups began to demonstrate on behalf of 
servicemen and servicewomen. Rolling Thunder continues that 24-
hour vigil to this day.
    The success of the National Park Service and the U.S. Park 
Police in managing these demonstrations is directly attributed 
to our reason and measured and progressive response. The MPS 
and the U.S. Park Police handling of First Amendment activities 
begins at the lowest level of enforcement and then increases if 
the situation warrants. This strategy insures the health and 
safety of the demonstrators as well as D.C. residents and 
visitors.
    Courts have recognized that this kind of reasoned and 
measured technique of law enforcement helps minimize the 
potential for disorder. The courts have also afforded the NPS a 
great deal of discretion to enforce rules and regulations in 
the manner that best fits the situation.
    In the case of the McPherson Square demonstrations, NPS 
personnel concluded that the activities in the Square were 
protected by the First Amendment and that there were less than 
500 demonstrators therefore, in accordance with our 
regulations, no permit is required. NPS regulations do not 
allow for camping within McPherson Square. However, temporary 
structures including tents are permissible as part of a 
demonstration and a 24-hour, round-the-clock vigil is also 
allowed.
    From the outset, NPS has been working with the District of 
Columbia including the Metropolitan Police Department, the 
Departments of Health, Fire and EMS, to ensure that the 
demonstrations at McPherson are conducted in a safe and lawful 
manner. Just this week, we conducted a joint health inspection 
with the D.C. Department of Health. U.S. Park Police have at 
all times maintained a law enforcement presence and patrols at 
McPherson Square in order to protect health and safety of park 
visitors and the demonstrators and have taken enforcement 
action when necessary.
    The NPS has employed a reasoned, measured and incremental 
approach to address regulatory violations that minimize the 
threats to public safety while protecting First Amendment 
activities. This process has involved an evolution from 
outreach and education to formal notices of the rules that 
govern use of McPherson Square.
    I want to be clear that we take seriously District 
residents' concerns and are constantly monitoring and 
evaluating conditions in the Square. I understand this 
demonstration has impacted some District of Columbia businesses 
and visitors alike and I appreciate their efforts to tolerate 
this activity.
    It is important to note that absent an emergency or threat 
to public or health and safety, demonstrators at McPherson 
Square must be allowed to continue their vigil in accordance 
with existing regulations and well established judicial 
interpretations of their First Amendment rights. As long as the 
demonstration continues, however, the NPS will take an 
enforcement approach that seeks to protect the health and 
safety of all respecting their First Amendment rights.
    This concludes my statement and I am open to questions.
    [The prepared statement of Mr. Jarvis follows:]
    [GRAPHIC] [TIFF OMITTED] 74027.019
    
    [GRAPHIC] [TIFF OMITTED] 74027.020
    
    [GRAPHIC] [TIFF OMITTED] 74027.021
    
    [GRAPHIC] [TIFF OMITTED] 74027.022
    
    Mr. Gowdy. The Chair will recognize himself for questions 
at this point.
    Mr. Jarvis, one reason that I like law enforcement like 
Chief Lanier and the other men and women who are in uniform 
today and everywhere else across the country, is there really 
are not protestors that are Republican or Democrat in their 
judgment; there are not laws that are Republican or Democrat; 
there are not crime victims that are Republican or Democrat. It 
is just the law.
    What I am trying to glean is what is the law because 
whatever you saw with respect to McPherson Square is going to 
have to be applicable everywhere else in this country, so the 
notion that you think Washington may have special First 
Amendment privileges, it does not. There are no more First 
Amendment rights in this town than there are in any other city, 
town, hamlet in this country.
    Define camping for me. You say it is prohibited. Tell me 
what it is.
    Mr. Jarvis. Yes, sir, I agree with you that the First 
Amendment applies everywhere in the United States. It is just 
in the District of Columbia, we have more experience with it 
because we have more protests, we have more First Amendment 
activities in the District than any other place in the country.
    The U.S. Park Police and the National Park Service that 
manage the National Mall handle hundreds of these kinds of 
events. We take exactly the same approach every time. That is a 
measured and reasoned response. What is unique about the 
McPherson Occupy group is that they are disorganized; there is 
no unit leader we can go to and negotiate our expectations of 
their compliance.
    Mr. Gowdy. Mr. Jarvis, I hate to cut you off. I have 5 
minutes. I need a definition of camping because I need to go 
back to South Carolina and tell everyone who wants to spend the 
summer in one of our parks what camping is and what it is not. 
Define camping for me juxtaposed with a 24-hour vigil because 
you seem inclined to draw a distinction and I cannot draw a 
distinction. What is the definition of camping?
    Mr. Jarvis. The distinction is for a 24-hour vigil they are 
awake at all times providing information or signs or whatever 
associated with their First Amendment activities. Camping is 
defined as sleeping or preparing to sleep at the site.
    Mr. Gowdy. Is there sleeping going on in McPherson Square?
    Mr. Jarvis. Yes, sir, we do believe there is.
    Mr. Gowdy. Is there preparing to sleep or are they all 
insomniacs?
    Mr. Jarvis. I believe that there are some preparing to 
sleep.
    Mr. Gowdy. So you are not drawing a separate, First 
Amendment rule for insomniacs versus narcoleptics?
    Mr. Jarvis. What I am stating is that we do believe that 
there is some camping going on at McPherson Square associated 
with their vigil.
    Mr. Gowdy. How much investigation have you done into that?
    Mr. Jarvis. We are, as I indicated, taking a measured and 
reasoned approach to this.
    Mr. Gowdy. I do not know what that means. I am just an old 
country prosecutor. Measured and reasoned approach does not 
mean anything to me. What means something to me is can you 
define camping because you strictly prohibit it; you just said 
it is going on; and that is fine. If you want to change the 
rules, that is fine. Just let me tell my constituents who want 
to visit D.C. this summer that they can come to any park they 
want, bring their tent as long as they say they are protesting. 
Can I tell them that?
    Mr. Jarvis. They can bring their tent, absolutely.
    Mr. Gowdy. They can stay. They can sleep?
    Mr. Jarvis. No, they cannot.
    Mr. Gowdy. Is there sleeping going on in McPherson Square? 
You said there is. What is the difference?
    Mr. Jarvis. What I said, and I will continue to say, is 
that the protestors, the demonstrators, exercising their First 
Amendment rights have the rights to be in McPherson Square 24 
hours a day. That is nothing new.
    Mr. Gowdy. You view them as a unit. As long as one of them 
is awake, that gives constitutional cover for the rest to 
sleep. Is that the new analysis?
    Mr. Jarvis. No, I do not say that. What I said is that 
they, as group, have the right to be there on a 24 hour vigil, 
individuals. The camping regulation is an individual violation, 
not a group violation.
    Mr. Gowdy. How many people have been cited for camping?
    Mr. Jarvis. At this point, none.
    Mr. Gowdy. You told me people were sleeping.
    Mr. Jarvis. We are in the process of gaining compliance 
with the occupiers through a series of ramping up the 
enforcement at the site to gain compliance. That is the 
approach we have used for First Amendment activities in this 
town for decades and it has been quite successful.
    Mr. Gowdy. How long has gaining compliance been going on? 
When did the movement start in D.C.?
    Mr. Jarvis. This particular movement began in October.
    Mr. Gowdy. October, November, December, so 90 days, coming 
up on 100 days, is that right? How long do you think it will 
take you to gain compliance?
    Mr. Jarvis. I hope we can gain complete compliance very 
soon.
    Mr. Gowdy. No citations for sleeping?
    Mr. Jarvis. We have issued a lot of other citations but not 
particularly for camping.
    Mr. Gowdy. Is that the lynchpin of the definition of 
camping, sleeping?
    Mr. Jarvis. Sleeping, yes, it is one of the definitions, 
sleeping or preparing to sleep.
    Mr. Gowdy. To prove your ideological neutrality, if the NRA 
or the Chamber of Commerce, the National Federation of 
Independent Businesses or anyone associated with the other side 
wants to come to McPherson Square this afternoon with tents, as 
long as one person remains vertical, they can stay?
    Mr. Jarvis. I am ideological neutral on this. I could care 
less what their cause is. My job as a 35 year veteran of the 
National Park Service is to protect the individuals' rights 
under the First Amendment.
    Mr. Gowdy. Wait a second. To protect their rights under the 
First Amendment, is it not also your job to enforce the law?
    Mr. Jarvis. Absolutely, it is my job.
    Mr. Gowdy. Is it against the law to camp?
    Mr. Jarvis. The courts have afforded us a great deal of 
discretion in how we enforce the law in order to protect the 
First Amendment. That is exactly what we are doing.
    Mr. Gowdy. Do you agree the Supreme Court has said sleeping 
and camping can be prohibited?
    Mr. Jarvis. Yes, they can, but at the same time, they gave 
us the discretion in how and when we implement that regulation.
    Mr. Gowdy. I am going to be making sure that anyone who 
wants to camp throughout the United States as long as they say 
they are in protest of something can do whatever they want in 
Federal parks.
    With that, I would recognize the gentleman from Illinois, 
Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    I too want to thank our witnesses for their testimony and 
for being here.
    The courts have traditionally upheld the right of 
governments to manage and supervise public property as long as 
there is a rational basis for the rules. No point of view is 
being discriminated against but the very name Occupy suggests a 
constant presence and commitment not to move in the face of 
perceived injustice.
    Director Jarvis, let me ask you, due to the length of the 
vigil, did your office have any special concerns about health 
and safety?
    Mr. Jarvis. Yes, sir. We have been concerned actually the 
most about health and safety from the very beginning. We have 
been working with the District of Columbia to put in place both 
the systems. For instance, the National Park Service increased 
the trash collection at McPherson to three times a day so that 
there would not be an accumulation of attraction or distraction 
at the site.
    Mr. Davis. Your office did work with the Park Police on an 
ongoing basis?
    Mr. Jarvis. Absolutely, yes, sir.
    Mr. Davis. How would you characterize the response of the 
Occupy D.C. protestors to whatever concerns that might have 
been expressed to them?
    Mr. Jarvis. Initially, because there is no one leader there 
that we could go to and discuss specifically with them our 
concerns for health and safety, cleanliness at the site and 
other concerns, and ititially they were antagonistic to our 
presence at the site. That has significantly changed. Through 
the great work of the U.S. Park Police and our staff within the 
National Mall, we have developed a rapport at the site, we have 
gained a great deal of compliance. They notify us when there 
are concerns particularly with law enforcement, so I believe we 
have made some great inroads.
    Mr. Davis. You would say they have basically been 
cooperative after the initial resistance?
    Mr. Jarvis. Yes, sir.
    Mr. Davis. Are there any benefits to the Occupy D.C. 
protestors to maintaining vigils in a few locations? Is it best 
that they be concentrated or have the ability to move from one 
perhaps location or one spot to another?
    Mr. Jarvis. It is an advantage from a law enforcement 
standpoint that they are concentrated in one area. That allows 
us to work directly with the Metro PD to provide around the 
clock law enforcement services at the site rather than being 
spread across a very large area, as well as the impact to the 
grass has already happened. Moving to another site would just 
result in new impacts to one of our other First Amendment 
sites.
    Mr. Davis. You mentioned your 35 years of service with the 
Park Service. Obviously you have seen many permits, many 
protests, many demonstrations. Have you seen any that have 
raised the level of concern that Occupy D.C. seems to be 
raising to the point of a congressional hearing?
    Mr. Jarvis. This is the first congressional hearing where I 
have testified related to a First Amendment activity.
    Mr. Davis. Thank you very much.
    I yield back.
    Mr. Gowdy. I thank the gentleman from Illinois.
    The Chair would now recognize another gentleman from 
Illinois, Mr. Walsh.
    Mr. Walsh. Thank you, Mr. Chairman. Thank you for hosting 
this hearing.
    Mr. Jarvis, welcome. I apologize if I want to pull us back 
and get some context.
    It is always so dangerous at hearings because we focus on 
things maybe we should not be focused on. I want to focus on 
one very specific notion.
    There is a statute, I believe, that says camping is 
illegal. Camping in McPherson Park is against the law, is that 
correct?
    Mr. Jarvis. That is correct.
    Mr. Walsh. In fact, I believe the Park Service handed out a 
document early on in the Occupy D.C. process to the folks at 
McPherson Park that I found quite helpful, which spelled out 
the definition of camping that you and I both agree is not 
allowed. It says ``camping is defined as the use of parkland 
for living accommodation purposes such as sleeping activities 
or making preparations to sleep including the laying down of 
bedding for the purpose of sleeping or storing personal 
belongings or making any fire or using any tents or shelters or 
other structure vehicle for sleeping or doing any digging or 
earth breaking.''
    Mr. Jarvis, based on your own definition of camping, are 
they camping at McPherson Park?
    Mr. Jarvis. We believe that there are individuals there 
that are doing those activities that would result in us saying 
they are camping, yes.
    Mr. Walsh. Why have they not been removed? Why has your own 
statute not been enforced?
    Mr. Jarvis. Because each of our First Amendment 
demonstrations are a little bit unique. This one is, let us 
say, unprecedented in part in that it has been stated that the 
core of their First Amendment activity is that they occupy the 
site. As we have approached this, how we are trying to manage 
this activity, our first goal in the National Park Service in 
allowing and providing for First Amendment activities is the 
health and safety of the community and the demonstrators 
themselves.
    We felt that going in right away and enforcing the 
regulations against camping could potentially incite a reaction 
on their part that would result in possible injury or property 
damage.
    Mr. Walsh. Mr. Jarvis, I appreciate the candor and the 
answer. You have acknowledged that they are camping, you have 
acknowledged that there are individuals in McPherson Park 
breaking the law. They have been there since October. It is not 
like 3 or 4 months later now you have been too quick to enforce 
the law. They have been there 4 months. We are not even yet 
getting into many of the other issues that the city is having 
to deal with.
    Again, nobody up here, Republican or Democrat, I do not 
think anybody in this hearing room questions at all their right 
to protest. That is not what this hearing is about. You are not 
enforcing your own statute. Who is telling you, I know this is 
not you, who is telling you not to enforce the statute? It is 
not your job to determine how to treat protest groups 
differently. They are breaking the law. Why aren't you 
enforcing that law? It has been 4 months.
    Mr. Jarvis. All of our decisions related to the way this 
particular protest has been handled has been made on the ground 
first and foremost by our U.S. Park Police officers and 
commanders. I served as a law enforcement officer and law 
enforcement officers are granted a great deal of discretion in 
terms of how they enforce and what they enforce and when they 
enforce.
    Mr. Walsh. Mr. Jarvis, my time is running out. Are there 
some political sensitivities at play here that is sort of 
preventing you all from enforcing the law?
    Mr. Jarvis. Absolutely not.
    Mr. Walsh. Are you getting any sort of advice or orders 
from people above you?
    Mr. Jarvis. I am regularly briefing the Secretary of 
Interior as would be expected under any issue that faces the 
National Park Service, but I am not taking direction on this on 
how the site should be handled.
    Mr. Walsh. Mr. Chairman, I will close with this because I 
see my time is running out. I had a staff member visit 
McPherson Park last night just to sort of learn from our own 
what is going on. Obviously what we found out seconds your 
opinion that folks are sleeping, they are camping. I appreciate 
your candor. I do not think this is your decision. I appreciate 
that the city of Washington, DC, is at a breaking point right 
now and I am just really curious as to why people above you do 
not let you enforce the law.
    Thank you, Mr. Chairman.
    Mr. Gowdy. Thank the gentleman from Illinois.
    The Chair will now recognize the ranking member of the full 
committee, the gentleman from Maryland, Mr. Cummings.
    Mr. Cummings. First of all, I want to thank all of you for 
your testimony.
    Mr. Jarvis, I just want to thank you for using your 
discretion. As a child, starting at 9 years old, I started 
participating in protests just to get some rights. I realize 
what a delicate balance it can be when you have people together 
who are frustrated and who are very, very sensitive and while 
trying to protect their health and safety, it must become 
difficult at time to try to figure where that balance is. 
Obviously you have done a very good job of dealing with it.
    At the same time, I was sitting here listening to the last 
questioner. Our law enforcement people, our park people and our 
government folk, who have to carry out these very difficult 
tasks, it is easy for us to sit up here and second guess the 
people on the ground like Chief Lanier and others, but the fact 
is you are the ones who have to deal with this on a day to day 
basis.
    I appreciate your discretion. I appreciate you 
understanding that something could get out of hand. The 
implication a moment ago, which I would find very insulting, is 
that you did your job using the discretion the courts have 
given you and the implication was somebody is telling you what 
to do and how to do it. That is not true, is it? In other 
words, you make your best judgment. Is that true?
    Mr. Jarvis. That is correct, sir.
    Mr. Cummings. Chairman Issa claims that the NPS has allowed 
protestors to damage the park significantly and that the NPS 
took no action until the protestors attempted to build a wooden 
structure. Is it fair to say that the NPS neglected to do some 
duty at any time since the Occupy protest began?
    Mr. Jarvis. No, sir. I believe we have taken exactly the 
appropriate approach from the very beginning in terms of 
attempting to contact and develop an understanding of the 
expectations and desires and intentions of the occupiers at the 
site. Again, because they did not have a central leader, most 
of this work has been done through observation. Since we didn't 
have someone to hand the fliers that were indicated, we posted 
them at the site and worked toward gaining their voluntary 
compliance and expectations at the site from the very 
beginning.
    We told them that permanent structures were not going to be 
allowed and when they attempted to put up the permanent 
structure, we did move in and remove it. I want to compliment 
the U.S. Park Police in the handling of that. If you remember, 
the press was quite good and we actually even received 
compliments from the demonstrators in terms of the way that was 
handled.
    Mr. Cummings. What was the significance of the attempt to 
build a wooden structure? What was the significance of that?
    Mr. Jarvis. I am not really sure what their intention was 
but they had been well informed that we would not allow a 
permanent structure.
    Mr. Cummings. Why would that trigger a response?
    Mr. Jarvis. They were going to build something on the site. 
This is a national park unit and temporary structures are 
allowed under the First Amendment in support of their protest, 
but not permanent structures.
    Mr. Cummings. There comes a point where discretion ends and 
then you have to act, is that correct?
    Mr. Jarvis. Yes, sir, that is correct.
    Mr. Cummings. I would take it that a wooden structure would 
be a clear signal that you had to do something?
    Mr. Jarvis. Yes, sir. It was essentially viewed as an 
escalation of their occupation at the site, so we felt it was 
time to step in and remove that.
    Mr. Cummings. No matter what group this might have been, 
whether they were protesting right, left, far right, far left, 
it would not have made a difference, you would have carried it 
out that way, is that right?
    Mr. Jarvis. Yes, sir, that is absolutely right.
    Mr. Cummings. You said this is a kind of unique situation. 
Have you ever seen anything like this in your 35 years?
    Mr. Jarvis. We do have long term vigils on the Mall. As I 
indicated, the Vietnam War vigil that takes place at the 
Vietnam Memorial near the Lincoln has been going on since the 
1980's. We have had other long term protests such as the 
farmers' workers that came in who were here for multiple weeks 
occupying sites on the Mall.
    Mr. Cummings. Again, I want to thank you for your 35 years 
of service.
    Thank you, Mr. Chairman.
    Mr. Gowdy. I thank the gentleman from Maryland.
    The Chair will now recognize the gentleman from Tennessee, 
Dr. DesJarlais.
    Dr. DesJarlais. Thank you, Mr. Chairman.
    Mr. Jarvis, do you feel you are doing a good job handling 
this matter?
    Mr. Jarvis. Yes, sir, I do.
    Dr. DesJarlais. Do you think it is necessary that we are 
here today to discuss this?
    Mr. Jarvis. I have no opinion on that.
    Dr. DesJarlais. Why wouldn't you have an opinion?
    Mr. Jarvis. I am a big believer in the three branches of 
government and I believe the legislative branch has its rights 
as does the executive branch.
    Dr. DesJarlais. When do you suspect that this problem will 
be reconciled? We are all here today, this is time-consuming 
and it is obviously important that we are here. I am not sure 
you think it is important we are here but when can we count on 
you to have this problem solved so we do not have to have 
meetings like this?
    Mr. Jarvis. We are planning very soon, I cannot give you a 
specific date, to begin the enforcement of the camping 
regulation. We feel we have given them plenty of time to come 
into compliance, we have given them plenty of warning, we are 
about to give them one more warning and recognition and notice 
and then we will be enforcing the camping regulation.
    Dr. DesJarlais. Do you think that is the way it is handled 
across the country in various State parks that if somebody 
wants to go in there, not pay their fee, set up a tent, say 
they are protesting, that is okay and they can have about 100 
days to sort that out?
    Mr. Jarvis. Each of our First Amendment activities in 
places across the country are handled on a site by site, case 
by case basis.
    Dr. DesJarlais. You think this one is being handled 
appropriately?
    Mr. Jarvis. I do, sir.
    Dr. DesJarlais. Chief Lanier, is this costing the taxpayer 
any money as far as additional police force being brought in to 
handle problems?
    Chief Lanier. For the most part, we are using our Special 
Operations Division that normally handles protests on a daily 
basis but we had to pull overtime officers from the patrol 
districts and hold over officers so we do not have it impacting 
the community, so there has been a cost.
    Dr. DesJarlais. Are there other people breaking laws that 
you are aware of?
    Chief Lanier. I know there have been arrests at the site by 
the Park Police and we have made some arrests out in the D.C. 
public space.
    Dr. DesJarlais. Is it patrolled at night? If some citizen 
just wanted to walk through the park, do you feel it is safe? 
There have been allegations that there is improper use of 
toilet facilities and I guess that would mean maybe going to 
the bathroom where you are not supposed to. If somebody did 
that out here on any of the other grasslands around the Capitol 
or near the White House, I assume they would be arrested?
    Chief Lanier. On D.C. public space, it is prohibited.
    Dr. DesJarlais. So that is a problem that is going on in 
McPherson Park?
    Chief Lanier. I would defer to Dr. Akhter who has done the 
walk through, but it is my understanding that there have been 
some issues with that, yes.
    Dr. DesJarlais. It seems if everyone was doing their job, 
we would not be here today. If there are laws being broken and 
people were being arrested and these problems were being 
resolved as they happened, it should not take 100 days to fix 
the problem.
    Chief Lanier. I can sympathize a little bit with the 
process of getting gradual compliance because you have to do 
that and then deal with the courts in that case. I can 
sympathize a bit with the responses we have had to take with 
demonstrations in the city in the past.
    Dr. DesJarlais. Dr. Akhter, what do you feel are the health 
risks not just for the people protesting but average citizens 
who want to use the facility? Are their rights being infringed 
upon?
    Dr. Akhter. I appreciate the opportunity.
    Health risks are real to the protestors themselves and to 
the people at large. I say this not only because of the 
sanitary conditions that exist in the park, but also because 
people go back and forth. The virus, the bacteria and the 
others do not know any boundaries. There are homeless people in 
the mix who may have infectious disease, so that really creates 
the environment that is not healthy not only for the 
protestors, but for the residents and the rest of us who are 
visiting or live in the city.
    Dr. DesJarlais. You feel that it is an unsafe situation 
that has arisen over the past 3 months?
    Dr. Akhter. It is the height of the situation that is in 
the center of our city and I think, with all due respect to my 
colleagues from the Federal Government, the big issue is lack 
of clarity and jurisdiction. The Federal Government has 
jurisdiction over the area. If they are allowed to stay, we 
better provide them the facilities and services that are needed 
for them to be healthy and for the community to be healthy.
    Dr. DesJarlais. Who should pay for that?
    Dr. Akhter. I think if it is Federal land, the Federal 
Government should pay for it.
    Dr. DesJarlais. The taxpayer should pay for it?
    Dr. Akhter. Absolutely. Somebody has to pay for these 
things, if we are allowing people to stay. My question is, this 
is the Nation's capital. We are the United States of America 
and people are living in suboptimal conditions where they are 
putting themselves at risk and the rest of the community at 
risk and nobody is really taking full responsibility for 
providing the services to them, so it falls by default on the 
D.C. Government for us to step in and try to do the clean up 
after the fact whereas there needs to be facilities right on 
the front end.
    If these people are going to stay any length of time, I 
submit to you all that we provide them the services they need 
so they can be healthy and not pose any risk to our community.
    Dr. DesJarlais. The point is there are laws being broken. 
We established that today. There is camping laws being broken, 
people are violating laws about urinating on capital property, 
but Mr. Jarvis does not think there is a problem here and he 
thinks he is doing a good job. I think we all should not be 
sitting here today if everybody was doing their job. Clearly, 
we have a bit of work to do.
    I am out of time. Thank you.
    I yield back.
    Mr. Gowdy. I thank the gentleman from Tennessee.
    The Chair would now recognize the gentlelady from the 
District of Columbia, Ms. Holmes Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    There are legitimate questions being raised here in the 
District of Columbia. The Federal Government has always 
cooperated well in order to handle them. These questions go to 
safety and health but they also go to First Amendment rights.
    I want to register my objection that there is no Occupy 
representative here. The chairman of the full committee said he 
thinks they should be heard. There would be no better place for 
them to be heard but at a hearing concerning their alleged 
actions. This would be the place. This is not a country where 
we talk about people and do not invite them to defend 
themselves.
    I want to congratulate the Park Police and the National 
Park Service.
    Mr. Issa. Would the gentlelady yield? I will be brief.
    Ms. Norton. If I can recover my time, of course I would 
then yield to the chairman.
    Mr. Issa. I ask unanimous consent I have 30 seconds to 
engage in colloquy.
    Mr. Gowdy. Without objection.
    Mr. Issa. I thank the gentleman.
    Madam, the best way I can put this is this hearing, at 
least from my view, was intended to be about what would happen 
with the next group of protestors now that we have set a formal 
precedent. Although within the committee's jurisdiction, if the 
gentlelady and the ranking member would like to have a minority 
day and have the other side come in and talk about why camped 
and why that should be allowed and why 400 other protests per 
year should be allowed similarly, you are certainly welcome to, 
but I would hope you heard in my opening that this is narrow. 
We are not talking about this group. We are talking about the 
next group and the group after of how we are going to protect 
the District of Columbia from, if you will, having lots of 
these kinds of events.
    I thank the gentleman and yield back.
    Ms. Norton. I thank the gentleman. We are aware of our 
rights for a minority hearing. The place to be heard is at this 
hearing, of course, because if we want to know what to do about 
the next group, the best way to understand that is to hear from 
all involved with this protest, not with only law enforcement 
officials or the officials of the Federal Government.
    I want to thank the police, the various police departments 
for their approach to seeking compliance. If the District of 
Columbia wants to have some problems, if the Park Police in 
fact had not engaged in the kind of ramping down to get 
compliance, then you would have had big-time involvement of the 
D.C. Police Department.
    Mr. Quander, are you aware that for years now, indeed for 
the 10-years since 911, I have been able to get an annual 
appropriation from the Federal Government that allows the 
District of Columbia to draw down the costs of demonstrations 
like the Occupy demonstration?
    Mr. Quander. Yes, I am aware.
    Ms. Norton. Have you drawn down any of that money?
    Mr. Quander. Money is being requested.
    Ms. Norton. So this is not costing the District of Columbia 
funds. If that money is drawn down, it can be paid for as it is 
always paid for because this is the Nation's Capital and while 
the chairman of the subcommittee is right that there is no 
preference in First Amendment rights, there is a deep 
sensitivity for how to enforce those rights at the seat of 
government. Have there been residents coming forward in 
significant numbers to complain about the presence of Occupy in 
our city?
    Mr. Quander. There have been a number of residents.
    Ms. Norton. In large or significant numbers?
    Mr. Quander. We have received a number of emails and 
residents.
    Ms. Norton. Is it not true that the District of Columbia, 
the Mayor and the City Council, while they have raised concerns 
about health and safety matters, the Mayor has asked for some 
change in where the occupation is taking place, that neither 
the Mayor nor the City Council have asked that these 
demonstrators be removed from Washington, DC?
    Mr. Quander. The Mayor has not made that request.
    Ms. Norton. Is it true, Dr. Akhter, to read from your 
testimony with your concern about these and the rest--no, this 
is Mr. Quander's testimony. ``Although there have not been any 
public health emergencies such as outbreaks of communicable 
disease or reported illnesses, we will remain vigilant in 
monitoring.''
    Your vigilance, of course--which will be paid for by the 
Federal Government--is what we are concerned about but Mr. 
Quander in his own testimony says that whatever have been the 
health problems, and there surely have been some, they have not 
presented major problems.
    Mr. Quander, when you use the words escalating tactics, 
have you seen escalating tactics or have you seen just the 
opposite, an outbreak here and there; the occupiers get 
themselves together, quieted down themselves and keep the 
matter from escalating. Hasn't that been the pattern rather 
than escalating tactics?
    Mr. Quander. What I said in my testimony is that our 
concern is for escalating tactics.
    Ms. Norton. Just a moment. This is a fact-finding hearing. 
Isn't it the case that there have not been escalating tactics? 
Shouldn't we give these demonstrators their due that there has 
been cooperation with the police and instead of escalating 
tactics, they have self-policed their movement? Isn't that the 
model we would like to see when demonstrators come to this 
city?
    Mr. Quander. That is the model that we would like to see.
    Ms. Norton. Mr. Chairman, I come from a generation that 
tried a new tactic too. It was a new tactic to change the 
United States of America. Nobody much wanted it. When 
Resurrection City was out there and it was raining cats and 
dogs and there was mud during civil rights protests, nobody 
said because of your health, we are going to get you out of 
this place. I think it is incumbent upon us to respect the 
different tactics of different generations.
    Let me say this as somebody who represents this city, has 
deep respect for the First Amendment first and foremost. What 
Mr. Zick said is very important to understand about the First 
Amendment and its enforcement. When you see me protecting First 
Amendment rights here, do understand that you are hearing it 
from a Member who spent the first part of her life as a 
constitutional lawyer protecting demonstrators, many of whom I 
disagreed with, including a case in the Supreme Court where I 
argued in face of a set of racists who wanted to continue their 
protest.
    The First Amendment knows no advantage. The Tea Party 
people would get the same respect and I am confident the same 
kind of treatment from the Federal Government and the Park 
Service that they have gotten here. It is up to the District of 
Columbia and its services to adhere to the First Amendment as 
well as anybody else. You are very fortunate that we have been 
able to get you the funds so that this does not cost the city a 
dime. Her overtime will be paid for and it is important that 
the rights be seen in those contexts and that there continue to 
be and indeed must be even greater cooperation between the Park 
Service and the District of Columbia because guess what, 
neither of you is going anywhere and the demonstrators are 
going to continue to come.
    This committee expects grown up responses as we have gotten 
from the Mayor of the District of Columbia and the Council of 
the District of Columbia, from all of its officials as well as 
from the Park Service.
    I yield back the remainder of my time.
    Mr. Gowdy. I thank the gentlelady from the District of 
Columbia.
    The Chair would now recognize the chairman of the full 
committee, the gentleman from California, Mr. Issa.
    Mr. Issa. Thank you and I ask unanimous consent that the 
three additional minutes the gentlelady from the District took 
be allowed.
    Mr. Gowdy. Without objection, Mr. Chair.
    Mr. Issa. Thank you.
    My obligation as the chairman of this committee is first 
and foremost for the District of Columbia to ensure that we do 
no harm to the District. I am not for a moment going to side 
with the gentlelady, the delegate from the District, my friend, 
Eleanor, and say that just because we let you draw down on a 
payment that we are not harming you. I think we are.
    I certainly think when the Mayor of the city sent to Mr. 
Jarvis a letter at the end simply saying ``At a minimum, the 
Occupy D.C. sites at McPherson Square and at Freedom Plaza must 
be consolidated at Freedom Plaza to allow for elimination of a 
rat infestation, clean up and restoration of McPherson 
Square.'' That is the District of Columbia that the gentlelady 
represents and that I am honored to have oversight of.
    I'm afraid many of you didn't get an answer.
    Doctor, first with you, is that a problem that legitimately 
the District has a responsibility, needs to make sure occurs, 
that is not occurring today?
    Dr. Akhter. Mr. Chairman, I am not quite sure. The issue of 
jurisdiction has not been settled.
    Mr. Issa. I was actually talking about the rat infestation.
    Dr. Akhter. No jurisdiction. They never asked D.C. for a 
permit.
    Mr. Issa. Impacting residents of the District of Columbia 
until it is cleaned up, right?
    Dr. Akhter. That is why we are involved in this process. 
Nobody supports more the First Amendment right of the people 
than I do. I have taken oath twice, once becoming a citizen to 
uphold the Constitution and the other time, becoming the 
Director of Health for the city. We support that, but people 
must be healthy to be able to stand up, be heard and be seen. 
If they are living in rat infested places, that is putting them 
at risk and putting our residents at risk. This is no 
demonstration of their First Amendment rights.
    Mr. Issa. I think you have made your point very clearly. I 
appreciate your having an opportunity to do that.
    I might point out that the ranking member representing 
Baltimore represents a city that handcuffed Occupy Baltimore 
protestors as did New York when they were trespassing.
    Mr. Jarvis, you are the focus here because you are, in 
fact, turning a blind eye to 4 months of law breaking. You 
mentioned your background in law enforcement. I appreciate that 
there is discretion, but do you have discretion to ignore 
overtly criminal activity or do you have discretion to 
concentrate on the most egregious, to prioritize? Which is it 
and I do not ask you for a third answer if you do not mind?
    Mr. Jarvis. We have the discretion to focus on the most 
egregious which we have made over 80 arrests.
    Mr. Issa. So you are focusing on the subpart but for 4 
months saying, we will focus on people who commit criminal 
activities beyond the core criminal activity that led to those 
arrests, right?
    Mr. Jarvis. We have focused on crimes against individuals, 
public urination and those types of crimes at the site.
    Mr. Issa. In your opening statement, you talked about First 
Amendment balance. Is somebody sleeping in a tent a legitimate 
First Amendment part of a protest, yes or no, please?
    Mr. Jarvis. No, it is not.
    Mr. Issa. In fact, the moment somebody begins sleeping in a 
tent, basically using somebody else's asset, the American 
peoples' asset in a way not prescribed or allowed within the 
regulations set about for all citizens, the moment they do that 
they are committing a crime which you have an obligation to 
enforce, how many enforcement actions have you taken over 
people who have ceased protesting and are simply camping there?
    Mr. Jarvis. To this date, we have taken none.
    Mr. Issa. I will ask you the rhetorical question I noticed 
when I made my opening statement you wrote down, are there 
parks in America in which park rangers usher people out of all 
or part of the park at sunset because in fact there are often 
designated camping areas and there are simply areas of the park 
you cannot be all night?
    Mr. Jarvis. I believe that probably is true. I cannot tell 
you specifically where that might be the case, but certainly 
there are areas in our national parks that are closed at 
certain times of the day.
    Mr. Issa. That is for a number of reasons including the 
conservation of assets. Sometimes it is just plain money. You 
guard the campgrounds 24 hours a day, you do not guard all of 
very large Federal lands, right?
    Mr. Jarvis. No, we try to extend our enforcement 
responsibilities throughout. I do want to correct you on this 
because it is an important point. Most of our national parks 
are open 365 days a year, 24 hours a day.
    Mr. Issa. For camping?
    Mr. Jarvis. We have areas that are specifically identified 
for camping and we do have areas that camping is prohibited.
    Mr. Issa. I would ask I have an additional 2 minutes.
    Mr. Gowdy. Without objection.
    Mr. Issa. I am an avid camper, both RV and tent over the 
years and a very old Boy Scout. Basically, it is a regular 
practice of the any Federal park that, first of all, they check 
to see if somebody is allowed to be a camper because you limit 
the number of campers and people who simply want to exceed that 
are ushered and you ensure that people are camping within 
lawfully designated areas, correct?
    Mr. Jarvis. That is correct.
    Mr. Issa. Yet for some reason, there has been an exception 
here. Let me ask you the most important question I ask 
hopefully rightfully on the side of the District of Columbia. 
Can we expect additional exceptions like this in the future? Is 
this a one-time occurrence that we are going to bring to an end 
once and for all or is there an expectation that this or any 
administration can pick and choose based on whether they like 
or do not like the First Amendment rights being asserted and 
allow some to stay and others to go or are we going to 
uniformly simply say if you are a protestor, you get to stay on 
Federal lands while you are protesting?
    Mr. Jarvis. The answer is that each First Amendment 
activity is going to be approached with the same set of 
principles.
    Mr. Issa. Okay. So camping is not a First Amendment. 
Camping is in fact a violation of law. The sleeping is a 
violation of the law. If protestors choose to camp, you and the 
Obama administration will make a case by case decision about 
whether or not you agree with the protestors' line, whether or 
not this group of protestors gets to stay and others get to 
leave, that is really what you are saying, isn't it?
    Mr. Jarvis. No, I am not saying that. Whatever they are 
protesting is irrelevant to our decisions. Our decisions are 
based on the totality of the circumstance.
    Mr. Issa. In the history of the Park Service and the 
Federal Government, how many times have protestors been allowed 
to stay in campgrounds when it was clearly an unlawful 
activity, to your knowledge, and been allowed to consider it a 
First Amendment event by the Park Service?
    Mr. Jarvis. Within my testimony, I specified at least 
three--when the farm workers' movement came here, lived on the 
Mall for 7 weeks; I indicated Resurrection City and they were 
here for at least a month on the Mall. We do not pick and 
choose. Each one is the totality of the circumstances and then 
our goal here from the beginning as well as the end is to gain 
compliance of all of our regulations. It has been an 
incremental enforcement and we intend to gain complete 
compliance with this group as well in particular as it relates 
to camping.
    Mr. Issa. Mr. Zick, as the minority's chosen witness, they 
did not choose the people sitting behind you, they chose you to 
speak on their behalf when asked who they wanted. Do you agree 
that incremental, selective and periodic, and some get it and 
some don't, is okay under the Constitution?
    Mr. Zick. I said you have to be very careful with viewpoint 
discrimination but I will say this with respect to camping, 
there is a world of difference between a recreational camper 
and somebody who camps as part of a protest. The Supreme Court 
did not say camping is not a First Amendment activity. It said 
the opposite. It did say the government had the authority to 
limit or prohibit, in Clark v. CC&V, that activity.
    I do not join issue with whether or not the camping 
regulation has been enforced here but I take your point. It 
cannot be enforced against some groups and not others when they 
are exercising First Amendment rights because the government 
agrees or disagrees with the message. That is true.
    Mr. Issa. Thank you.
    Thank you, Mr. Chairman, for focusing on this and hopefully 
we are bringing some resolution. I think we heard here today 
that the protestors are, in fact, being given notice and in a 
foreseeable period of time, a very short period of time will 
pass before they will have to find other accommodations and 
protest only during the day.
    I yield back.
    Mr. Gowdy. I thank the gentleman from California.
    The Chair would now recognize the gentleman from Missouri, 
Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman.
    Normally, I would say thank you for this hearing but 
because of the tone and tenor, I am not going to say that. The 
tone and tenor of this hearing is rather disturbing.
    I visited an Occupy camp in St. Louis, my hometown, Kiener 
Plaza. I found it to be orderly, organized and very sanitary. I 
went inside some tents and they had computers set up and all of 
that. It was very organized, so I did not experience what you 
say you have experienced here in D.C.
    The tone and tenor of this hearing is on the wrong track. 
When we talk about peaceful assemblage in this country, I think 
back to being a very small child in the summer of 1963 and 
seeing the images come across my TV of those peacefully 
assembled in Birmingham, Alabama and were met by Bull Connor 
with dogs and fire hoses. He was wrong then and I think that 
the majority is wrong on this instance.
    When you think about our First Amendment rights for all 
Americans to be able to assemble peacefully to voice their 
concerns about issues in this country, we should not try to 
tamp that down, we should not try to distinguish between one 
form of assemblage to another.
    Former Secretary of Labor Robert Reich described the 
message of the Occupy movement this way. He says, ``If there is 
a single core message to the Occupy movement, it is that the 
increasing concentration of income and wealth at the top 
endangers our democracy. With money comes political power, yet 
when people without money assemble to express their 
dissatisfaction with all this, they are told the First 
Amendment doesn't apply. Instead, they are treated as public 
nuisances, clubbed, pepper sprayed, thrown out of public parks, 
and evicted from public spaces.''
    Professor Zick, are government agencies like the Park 
Service limited in what steps they may take to contain a 
protest by their legal obligation to uphold the First Amendment 
rights of the protestors?
    Mr. Zick. They are.
    Mr. Clay. My understanding is that the seminal Federal 
case, Quaker Action v. Morton is decades old, isn't that right?
    Mr. Zick. That is correct.
    Mr. Clay. Is there anything new about that obligation or 
about Occupy D.C. that would make the Park Service's recent 
decisions out of line with decades of past practice?
    Mr. Zick. There is nothing new in the jurisprudence. I 
think what is new and what people have been pointing out is 
quite new is the use of this kind of a protestor demonstration 
to make a public point, to join a public debate. The use of 
public place in this fashion is, I think, unprecedented. The 
closest thing I suppose would be a sit-in. This is a large, 
outdoor sit-in activity that does pose some stress for public 
concerns of safety and health and so forth, but there is 
nothing in the jurisprudence that has changed since Quake 
Action in the 1970's, no.
    Mr. Clay. This is just another form of peaceful assemblage 
of Americans protesting what they think is wrong and having a 
voice in their government, is that correct?
    Mr. Zick. To the extent it is peaceable assembly and to the 
extent it is not as we have heard testimony the criminal laws 
are being enforced.
    Mr. Clay. Thank you.
    Mr. Chairman, I yield the balance of my time to the 
gentlewoman from the District of Columbia.
    Ms. Norton. I thank the gentleman for yielding.
    Mr. Jarvis, let me again thank the Park Police that there 
has not been escalation, in part, because of how the occupiers 
have conducted themselves, but also because the Park Police 
have done very expert policing to ramp down the problems and to 
get enforcement. We want more of that because we do not want 
the city torn up by demonstrators.
    Let me ask you, Mr. Jarvis, has the bulk of the police work 
been done by the Park Police rather than the District of 
Columbia police?
    Mr. Jarvis. In the case of the site itself, McPherson 
Square, the U.S. Park Police, the National Park Service.
    Ms. Norton. So the daily policing has not been a matter for 
the city, but the Federal Government has, in fact, been doing 
the daily policing for the most part?
    Mr. Jarvis. Yes, ma'am.
    Ms. Norton. In light of Dr. Akhter's concern about rats, 
have you been in touch with the Public Health Service or Dr. 
Akhter and the District of Columbia Public Health Service at 
all, sir?
    Mr. Jarvis. Yes, the Public Health Service Corps works for 
the National Park Service. Captain Chuck Higgins has been 
working directly with the District on a Public Health review of 
the site.
    Ms. Norton. They are cooperating. You believe they will get 
any matters involving public health under control because of 
cooperation between the Federal and the District Governments on 
public health matters?
    Mr. Jarvis. Yes, I do believe that.
    Ms. Norton. Do you agree, Dr. Akhter, as well?
    Dr. Akhter. We have started the communication. There has 
been one meeting between Captain Higgins and myself. We have 
discussed the issues and mutually agreed that action needs to 
be taken to make sure that the site is cleaned up and is 
healthy for the protestors and our residents.
    Ms. Norton. Thank you.
    Mr. Gowdy. I thank the gentlelady from the District of 
Columbia and the gentleman from Missouri.
    The Chair will now recognize the gentleman from North 
Carolina, Mr. McHenry.
    Mr. McHenry. I thank the chairman and I would like to yield 
the balance of my time to the chairman so he can continue his 
line of questioning from earlier.
    Mr. Gowdy. I thank the gentleman from North Carolina.
    Professor Jarvis, I know that you are an expert in 
research. Do you also teach criminal process or constitutional 
law? I am sorry, Professor Zick?
    Mr. Zick. I am sorry. The question again?
    Mr. Gowdy. Are you familiar with criminal process and 
constitutional law?
    Mr. Zick. I teach constitutional law.
    Mr. Gowdy. What is selective prosecution?
    Mr. Zick. Singling out and individual for prosecution on 
some sort of invidious basis.
    Mr. Gowdy. Could it also include a misuse of your 
prosecutorial discretion?
    Mr. Zick. I suppose. We are getting far afield of my 
expertise.
    Mr. Gowdy. Mine too. You are the professor.
    Mr. Zick. Not necessarily criminal procedure, but it 
certainly could.
    Mr. Gowdy. It seems clear that you can't enforce or non-
enforce based on content. Would you also agree you cannot 
enforce or non-enforce based on geography or jurisdiction?
    Mr. Zick. I am not sure I understand in what sense.
    Mr. Gowdy. Is there a different First Amendment rule for 
the District of Columbia than there is for Utah?
    Mr. Zick. I think there is a heightened sensitivity and, in 
part, for this reason. You have a right to petition the Federal 
Government. You can do that far more effectively from two 
blocks from the White House than you can from Cleveland.
    Mr. Gowdy. You think that there would be a different First 
Amendment analysis based on where you are in this country?
    Mr. Zick. I am not sure it would be different First 
Amendment analysis, but as someone put it, there would be a 
heightened sensitivity to the First Amendment right in 
question. The doctrine would not change.
    Mr. Gowdy. That creates a very curious result. The closer 
you get to the District of Columbia, you have more First 
Amendment rights.
    Mr. Zick. I do not know that you have more First Amendment 
rights, but the D.C. Circuit, in particular, has recognized 
that given, again, the location, the proximity to the seat of 
government, there is a special sensitivity for First Amendment 
rights.
    Mr. Gowdy. But this is not the only seat of government. 
There are 50 capitals, aren't there?
    Mr. Zick. Yes, sir.
    Mr. Gowdy. There are thousands of county seats, so you are 
not arguing that because this is the seat of the Federal 
Government, that they would have more First Amendment rights 
than the capital of Nevada, are you?
    Mr. Zick. I am not arguing necessarily there are more First 
Amendment rights, but in the balance the courts undertake in 
terms of balancing free speech rights against other concerns, I 
think it is appropriate to take that into account. I think some 
courts have, in fact, done that, the D.C. Circuit chief among 
them.
    Mr. Gowdy. I want you to balance this. Mr. Jarvis, have 
there been any arrests for camping in the country in the last 
12 months?
    Mr. Jarvis. I have no idea.
    Mr. Gowdy. What do you think?
    Mr. Jarvis. I would not like to speculate on that. The 
National Park system is a big place.
    Mr. Gowdy. Right. Let me say, Mr. Cummings if it was 
entirely correct to commend you for your 35 years of service. 
In a former life, I actually had the pleasure of prosecuting 
some of your cases in South Carolina. My fear is this. I 
understand you are in a difficult position. I really do.
    My fear is this. If someone in South Carolina, Georgia, 
Utah or Maryland is going to be charged with camping, it makes 
it really difficult to say that we are one Nation under the law 
if you have different applications of the law based on where 
you are. I think you and I both, if we look hard enough, could 
find someone who was arrested and prosecuted for camping.
    To Professor Zick's point that there is something called 
selective prosecution, I would be curious how we explain to 
that person who paid a fine or perhaps was incarcerated what 
the difference is.
    Mr. Jarvis. I think that as the professor indicated, 
recreational camping is different than First Amendment 
activities that include a 24-hour vigil.
    Mr. Gowdy. Is there First Amendment sleeping versus 
recreational sleeping?
    Mr. Jarvis. In this case, we have a 24-hour vigil which we 
do believe.
    Mr. Gowdy. That actually was not my question. Is there 
First Amendment sleeping versus recreational sleeping?
    Mr. Jarvis. I do not really understand that question.
    Mr. Gowdy. Here is the question. You already said that 
sleeping is prohibited because it is one of the examples of 
camping. You also said people are sleeping in McPherson Square. 
My question is, are there certain constitutionally protected 
forms of sleeping or are you admitting that you have 
selectively prosecuted certain people and not others?
    Mr. Jarvis. No, I am not admitting in terms of selective 
prosecution. What I am saying is that we have gained compliance 
through an incremental approach. The important point here is 
that sleeping and camping is an individual regulation. It is 
against an individual, not a group.
    Mr. Gowdy. How does a group sleep?
    Mr. Jarvis. There is no regulation that we can apply toward 
Occupy D.C. on camping. There is a camping regulation that we 
need to build a body of evidence around an actual individual, a 
person with a name, that they are camping at McPherson. It is 
our intent to do that but we have done that at the end of a 
long progression of gaining compliance and health and safety 
first.
    Mr. Gowdy. Mr. Jarvis, I want to say again, Mr. Cummings 
was right, you have a very difficult job. I knew that actually 
before he said it, but he is to be commended for saying it 
again. As everyone on both sides has said, you have a difficult 
job, just like Ms. Holmes Norton had a very difficult job when 
she had to defend someone whose speech she disagreed with. That 
would be a very challenging thing to do.
    My concern is not today, it is not this movement, it is not 
what is happening in Washington. My concern is the fabric of 
this republic is going to unravel if we treat people 
differently. It is unraveling because there is a perception 
that we treat people differently. If you can guarantee me that 
the exact thing would happen in Utah or South Carolina, or if 
people who had a conservative ideology came to McPherson 
Square, I would still say this. Either enforce the regulation 
or do away with it, but to have a regulation and not enforce it 
undermines respect for the rule of the law.
    I think there has been a request for a second round of 
questions. Mr. Davis, are you amenable to that?
    Mr. Davis. Yes, sir.
    Mr. Gowdy. Would it suit if we had an abbreviated 3 minutes 
as opposed to five?
    Mr. Davis. I think that would work.
    Mr. Gowdy. With that, I guess I was finishing out Mr. 
McHenry's time. I do not want to monopolize it. Mr. McHenry or 
Mr. Walsh? I am going to give it to Mr. Walsh because I have 
been talking too much.
    Mr. Walsh. I will be brief. Thank you, Mr. Chairman.
    Mr. Jarvis, let me just second what the chairman just said. 
I respect the job you have and I understand what you are going 
through. You said one thing in the first line of questioning 
that is eating at me and maybe I misinterpreted it. You said 
that because the word occupy was in the name of this protest 
group, you were treating them a little differently. Was that 
right?
    Mr. Jarvis. No. If I could correct the record on that, let 
me just say that each First Amendment protest has its unique 
components. In this particular one, as stated by the professor, 
their principle behind their First Amendment activity is to 
``occupy'' a piece of public land.
    Mr. Walsh. Which has given you a bit more discretion in how 
you deal with them?
    Mr. Jarvis. I would say a bit more of a challenge in how we 
deal with it.
    Mr. Walsh. If I had a group that was ``Live-In D.C.,'' 
would you let me live there for a couple years? Would you have 
more discretion with how you would deal with me if the name of 
my group was ``Live-in D.C.?'' Do you see what I am saying?
    Mr. Jarvis. I see what you are saying but I am not using 
the name say with a capital ``O.'' I am using it in terms of a 
verb, they are occupying the site.
    Mr. Walsh. Right.
    Mr. Jarvis. Any protest that comes to Washington, DC, with 
First Amendment rights has to be evaluated in terms of how we 
deal with them to gain compliance. As we said, it is 
unprecedented. We are working our way through this.
    Mr. Walsh. Mr. Chairman, with your indulgence, we had staff 
last night pay a visit to Occupy D.C. With your permission, I 
would love to show just a 2-minute video. I think it seconds a 
lot of what Mr. Jarvis has said as far as them camping and 
sleeping.
    Mr. Gowdy. Without objection.
    [Video presentation.]
    Mr. Walsh. Thank you, Mr. Chairman.
    Mr. Gowdy. Thank the gentleman from Illinois.
    The Chair would now recognize the other gentleman from 
Illinois, Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Director Jarvis, let me ask, how do you distinguish between 
D.C. Occupy protestors and homeless people who might find their 
way into McPherson Square?
    Mr. Jarvis. This has been a concern, Congressman, that we 
do believe some homeless people have moved in to join the 
occupiers and have taken advantage of the situation there both 
in terms of the services. That is one reason we have been 
working with the Metropolitan Health Department to provide 
social services at the site as well. I think they have been 
subject to some of the arrests we have made at the site for a 
variety of activities but it is a concern.
    Mr. Cummings. I am delighted to know that there are some 
homeless people who have joined the Occupy protestors.
    In your testimony and in response to inquiry today, you 
mentioned a number of times that there were other long term 
vigils--veterans, farmers. Did they go to hotels, to your 
knowledge, when they were there? How did they maintain 
themselves? Did they come out during the day and then in the 
evening go down to the Grand Hyatt or someplace, get a room, 
sleep and then come back the next day and get on their 
tractors?
    Mr. Jarvis. They maintained 24-hour vigils in each of those 
situations. I am not knowledgeable enough about those actual 
protests to give any details as to how they managed all of that 
activity.
    Mr. Davis. Then it would be fair to suggest that perhaps 
these protestors, Occupy D.C., are handled no differently than 
what other long term vigil protestors have been treated?
    Mr. Jarvis. I think that is correct, yes, sir.
    Mr. Davis. Let me thank you very much because the more I 
listen to this discussion and the more I hear what has taken 
place and what is taking place, the more I am convinced that 
your 35 years of law enforcement have served you well, that you 
have made some solid, sound, rational decisions and you really 
represent the best of what law enforcement ought to be.
    I commend you and I commend the Park Service for the way in 
which you have handled a very difficult situation and that you 
really understand what it means to have freedom of speech, 
First Amendment protection.
    I yield back, Mr. Chairman.
    Mr. Gowdy. I thank the gentleman from Illinois.
    The Chair would now recognize the gentleman from 
California, the chairman of the full committee, Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    I apologize. We had a vote next door in Judiciary. As I 
come back, I have just a couple quick questions.
    Mr. Jarvis, we had a lot of debate about the past and the 
future. At times, protestors have come to the city, they camped 
and they have been in some way accommodated. You made that 
point in your opening statement. Have there been times when 
protestors came, they camped and they were not accommodated?
    Mr. Jarvis. I have no information on that. I do not know.
    Mr. Issa. That was the subject of today's hearing and you 
came not knowing if Park Police had ever arrested somebody who 
asserted they were a protestor and you said, that is nice, but 
you cannot camp here?
    Mr. Jarvis. I am sorry, I do not have that but I would be 
absolutely glad to find out and come back to the committee with 
that information.
    Mr. Issa. We would appreciate an answer for the record.
    Mr. Jarvis. Yes.
    Mr. Issa. Mr. Zick, this a constitutional question to a 
great extent and this is not the constitutional committee. This 
is the D.C. Committee more than anything else. If we were to 
make it clear in the future through some statute, in addition 
to the Supreme Court decision, that protestors would not be 
accommodated unless that area was either permitted or by 
requesting a permit, therefore, obviously port-a-potties and 
all the other facilities which we do for various demonstrators 
even if they are not staying the night or in fact, they stayed 
at a facility that was already allowed.
    In other words, if we made it clear in statute that it was 
not discretionary and we did so uniformly by statute would that 
pass the smell test of there are plenty of places to protest 
but you cannot sleep there, it is not a constitutional 
question. In other words, your testimony today and this 
problem, isn't ambiguity to a certain extent a problem?
    Mr. Zick. The regulation, as it is written, calls for a 
determination based on the totality of evidence of whether or 
not it is reasonably apparent that people are using it as a 
living accommodation. That is lawyer speak for this is 
ambiguous but also it is open to discretionary enforcement.
    With respect to whether you can write new rules in response 
to a protest, that could be problematic. They have tried that 
in some other jurisdictions in response to the Occupy protest, 
I believe in Nashville, and the courts found that to be 
problematic.
    Mr. Issa. We are talking about not for this particular 
group of protests but for the future, for those that will come 
for issues not yet at the forefront.
    Mr. Zick. If you are talking about that and if you write 
and enforce the law in content neutral terms, to use your 
language, Mr. Chairman, it would pass the First Amendment smell 
test.
    Mr. Issa. Let me couch it in a final question for me for 
today for each of you. Would that be helpful, in a post-protest 
period--I am not talking about this week or next week when 
everyone would view it related to a particular group--would 
this be helpful? I will start with the Park Service and come 
the other way. Would this be helpful for you to have 
predictability and certainty for the future? Mr. Jarvis.
    Mr. Jarvis. I think first and foremost we would have to 
evaluate whatever language you would be proposing so we 
completely understand its implications and how we would be 
tasked with enforcing it on the ground and whether or not it 
would be subject to challenge within the courts which creates 
additional burden.
    Mr. Issa. Forget all that. It is not your job. From the 
standpoint of if you were told that one of the elements for 
discretion was not somebody saying I am here in a vigil, that 
would not exempt in any way, shape or form their overnight 
camping. If we clarified that, and we will assume the men and 
women in black robes will look at it and approve it, would that 
make your job better long in the future, your successors need 
to, in fact, bring uniformity and clarity particularly as to 
the First Amendment?
    Mr. Jarvis. I am not going to pass judgment.
    Mr. Issa. The gentleman takes a pass on that.
    Mr. Zick.
    Mr. Zick. I think given that the touchstone of First 
Amendment analysis is content neutrality, predictability would 
be beneficial. I would be concerned about the impact on First 
Amendment rights. It makes no difference here that I disagree 
with the CCNV case. It is the law of the land, but in terms of 
writing something that is clear on its face and neutrally 
applied, yes, that would be a plus.
    Mr. Issa. I look forward to seeing your involvement if we 
get to that point.
    Dr. Akhter.
    Dr. Akhter. I believe, Mr. Chairman, we have adequate laws, 
rules and regulations in the District of Columbia that allow me 
to do my job in a respectful manner.
    Mr. Issa. Chief, would this be good for you if you knew 
what to expect on Federal lands adjacent or within the District 
of Columbia?
    Chief Lanier. For law enforcement purposes, predictability 
and very clearly written laws are always really important, 
especially when you are in depositions, and predictability for 
planning purposes, especially in our jurisdiction, things are 
always moving, at least we try and keep them moving.
    Mr. Issa. Mr. Quander? You get the last one on behalf of 
yourself, the Mayor and the Council.
    Mr. Quander. Predictability and clarity are always 
extremely beneficial.
    Mr. Issa. Thank you.
    Mr. Chairman, thanks for the indulgence in my last round.
    Mr. Gowdy. I thank the gentleman from California.
    The Chair would now recognize the gentleman from Maryland, 
the ranking member of the full committee, Mr. Cummings.
    Mr. Cummings. Thank you very much.
    As I sat through this entire hearing, I must tell you that 
I wish we had as much concern about the people who have lost 
their houses, the Americans who have suffered some $7 to $11 
trillion worth of losses. It baffles me, it truly does, that we 
have now had over 118 hearings, 342 witnesses in this committee 
and when we ask for one of the bankers to come tell us why they 
were robo-signing, violating the law, we cannot get them. The 
chairman does not want them to come in to explain to us why it 
is that they have illegally put people out of their houses, 
offenses they have already admitted to.
    I guess people who are protesting and are part of Occupy 
look at a hearing like this and say, this is why they are 
protesting. This is why because they see their government, 
particularly a committee that is supposed to be standing up for 
them not addressing the issues that go to the center of their 
lives. It is a damned shame because I listened to you, Mr. 
Jarvis, and I get what you are doing. Some people would try to 
call it selective prosecution.
    You are a practical man, you are a law enforcement officer, 
you have been trained. You do not want to incite a situation, 
you do not want it to get worse, so you try to contain it and 
try to work with people because you understand these people are 
human beings. They are human beings and they have come because 
they are concerned about what their government is not doing.
    I am hoping that maybe a tiny bit of the energy we have put 
into this hearing we will put into addressing the very things 
that the Occupy movement is all about and the things they are 
concerned about. Maybe then we will not have to have these 
hearings, then we will not have to worry about whether there 
will be another Occupy.
    As I sit here I am saying to myself, I understand. I get 
it. I think about police officers and I watch these ladies and 
gentlemen of the Capital Police. They do it to perfection. I 
have seen situations where things could have gotten completely 
out of hand, but they find a way to try to resolve the issues 
so people can still have their rights fulfilled, do their 
protests and whatever.
    I am just hoping that just maybe some of the message will 
come through to us that maybe we ought to have a hearing and 
bring in some of the guys and ladies who may have been the 
cause of the problems that our people are going through or the 
cause of some of those people sitting in those very camps who 
have been thrown out of their houses.
    With that, Mr. Chairman, I yield back.
    Mr. Gowdy. I thank the gentleman from Maryland.
    The Chair would now recognize the gentlelady from the 
District of Columbia, Ms. Holmes Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Chief Lanier, would you say the Occupy movement was 
predictable?
    Chief Lanier. Yes. We were not the first Occupy camp, so 
yes, we knew that Occupy was coming.
    Ms. Norton. Not here in the District of Columbia. When the 
first Occupy protest broke out in New York, could that have 
been predicted?
    Chief Lanier. No.
    Ms. Norton. I ask that question only because above all, law 
enforcement needs to have ample discretion. The best way to get 
slapped down is to get an ironclad rule written into law that 
then goes up to the courts and up to the Supreme Court. I speak 
to you as a First Amendment lawyer who has been there and done 
that. It would hurt you as much as it would hurt the occupiers 
and I do not think we want more tests of that kind, we want 
more compliance and certainly no escalation of violence.
    Mr. Jarvis, it would appear that the responses of the 
occupiers have affected the kind of enforcement that the Park 
Service has deemed to be necessary. Here is a question I would 
have asked the occupiers if there had been a witness but you 
are the next best thing, so I am going to have to ask you.
    What steps have the occupiers taken to police themselves 
and to respond to the concerns that you have raised or that the 
police or others have raised?
    Mr. Jarvis. Over the period of months I have been working 
with them, they have executed a number of things voluntarily in 
terms of site cleanup, the areas in which they are distributed 
in McPherson. One comment was made earlier that the National 
Park Service is providing the port-a-potties. That is not true. 
The occupiers are providing both the services and the cleaning 
of those port-a-potties, so they have brought a great deal of 
organization to the site.
    I think the relationship we have on the ground is 
significantly different than when they first arrived. I walked 
through the camp myself last week with U.S. Park Police. We 
were greeted friendly and were able to talk directly to many of 
the demonstrators. They thanked us for the work that we were 
doing there.
    Ms. Norton. I certainly want to go on record to thank the 
Occupy movement for being responsive to the police and to 
remind them that as they have head from the rostrum, and 
perhaps even from the table, there are some who would not be as 
friendly to First Amendment rights and the more we can call 
their bluff, it seems to me, by cooperation and with the non-
violence exemplified by the icon of successful nonviolence, Dr. 
Martin Luther King, the better off we would be.
    I have to ask Mr. Zick about this notion of the Nation's 
Capital as a special place. During the Arab spring, you could 
not get to the floor but people were competing to egg on all of 
the demonstrators of the Arab spring, egg on, even if they 
brought a revolution, egg on even if they brought down a 
government that had been friendly to the United States of 
America, to the floor we all came on both sides of the aisle 
and of course, there was a revolution. Many of them said they 
had looked to demonstrations in this country and were very 
grateful for the response we have had in this country.
    The place they look to is not Oakland or Portland or my 
good friend, and he is a good friend, will forgive me, not even 
Charleston. The place they look to I daresay is the Nation's 
Capital. Therefore, while I agree with the chairman about how 
the Supreme Court will look at the First Amendment for what it 
is, if I may say so, to confer a set of preferred rights. That 
is how important First Amendment rights have been in our 
country. If you look at the five-four split on the Court, isn't 
it interesting that there are not many splits when it comes to 
the First Amendment.
    I would like to ask your expert opinion, given the place 
where we are and its visibility to the world what the effect of 
suppression of the Occupy movement in the Nation's Capital 
would have been had the Park Police acted in ways other than 
how they have chosen to act?
    Mr. Zick. I think suppression anywhere would be 
problematic, but I take your point. This is a special place not 
in the sense that it confers special rights. I think that is an 
important point to keep in mind, but the context is critical. 
The places we are talking about, the National Mall, Lafayette 
Square Park. This was a point made by Justices Marshall and 
Brennan in the CCNV case, those are unique places not only 
because your right to petition the Federal Government applies 
here in the District and not elsewhere, that is a special 
right, but even with respect to speech and assembly rights, 
those are iconic, sacred, inscribed places in our history and I 
think that would send a very bad signal to the public at large 
and maybe to the world at large with respect to our respect for 
First Amendment rights that we tell the world are exceptional.
    Ms. Norton. Thank you very much.
    Mr. Gowdy. I thank the gentlelady from the District of 
Columbia.
    Dr. Akhter, briefly, are you familiar with any civil 
liability exposure the District may have?
    Dr. Akhter. No, Mr. Chairman, I am not aware at this time.
    Mr. Gowdy. Have you been immunized by the Federal 
Government for any civil lawsuits that may take place as a 
result of anything that may happen?
    Dr. Akhter. Mr. Chairman, I am not aware I have been 
immunized by the D.C. Government as a government employee.
    Mr. Gowdy. I was not referring to your own personal 
immunity. I hope you do not need any. I hope I do not need any 
either. My concern, I guess, Professor Zick, you correct me if 
I am wrong, it has been a long time, evidence of the violation 
of a rule or regulation can be evidence per se or evidence of 
negligence in a civil suit, right?
    Mr. Zick. Yes, sir.
    Mr. Gowdy. I guess I will finish where I started. I do not 
understand the sense or the use of having a rule or regulation 
if it is not going to be enforced. It strikes me that the 
process we go through in this country is if you do not like a 
law or a rule, you change it. If you do not feel you can change 
it, we have a long, rich history of civil disobedience in this 
country. The most famous epistle on civil disobedience was 
written where, Professor Zick?
    Mr. Zick. I am sorry?
    Mr. Gowdy. See if you would agree with me. The most heinous 
letter with respect to civil disobedience was written where?
    Mr. Zick. In Birmingham jail?
    Mr. Gowdy. Jail, right? Not Birmingham, but the jail.
    My point is this. If you do not like the law, change it, 
but to ask Mr. Jarvis, Chief Lanier, the Capital Hill Police 
who all have very difficult jobs to also have to decide which 
laws to enforce and which ones not to. Mr. Cummings and others 
have spoken very eloquently about the frustration with a multi-
tiered society with respect to fairness. We have exactly the 
same issues if we have a multi-tiered society with respect to 
which laws we are going to enforce and which ones we are not.
    My advice is either enforce the rule or regulation as 
written or change it but selecting it in some States and not 
others will undermine respect for rule of the law.
    With that, on behalf of all of us, we want to thank all of 
the witnesses for you accommodation toward one another, for 
your respect and expertise with respect to your interactions 
with us on the panel.
    With that, we are adjourned.
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
